ORIGINAL
No.

5390

filed
MAY 0 7 2021

IN THE

Sjp^^g!fR?LERI<
u.s.

SUPREME COURT OF THE UNITED STATES

Jeanette S.R. Lipinski — PETITIONER
VS.
Yolanda Castaneda et al,— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI

To United States Court of Appeals for the Seventh Circuit

PETITION FOR WRIT OF CERTIORARI

Jeanette S. R. Lipinski ProSe
14121 S. Green bay Avenue
Burnham, IL 60633
773-240-7701

QUESTION(S) PRESENTED
The committees on Codes of Conduct and Judicial Conduct and Disability held a public
hearing on the proposed changes to the Code and JC&D Rules on October 30, 2018 in
Washington, D.C. Watch the video on demand below:

Watch the Public Hearing: Review the witness statements. Witness List (pdf)
Committee on Codes of Conduct The Honorable Ralph R. Erickson, Chair
Committee on Judicial Conduct and Disability The Honorable Anthony J. Scirica, Chair
Public Hearing on Proposed Changes to Code of Conduct for U.S. Judges and Rules for
Judicial-Conduct and Judicial-Disability Proceedings, October 30, 2018, 9:00 a.m. - 4:00 p.m.
(Lunch Break: 12:30 p.m. - 1:00 p.m.)l.
Witness List 2.
- The Honorable Lawrence J. O'Neill, Chief Judge, U.S. District Court, Eastern District of
California
- Charles Gardner Geyh, John F. Kimberling Professor of Law, Indiana University Maurer
School of Law
- Arthur D. Heilman, Professor of Law Emeritus, Distinguished Faculty Scholar, University of
Pittsburgh School of Law
- Renee Newman Knake, Joanne and Larry Doherty Chair in Legal Ethics & Professor of Law,
University of Houston Law Center
- Carol A. Needham, Emanuel Myers Professor of Law, Saint Louis University School of Law
- The Honorable Julie A. Robinson, Chief Judge, U.S. District Court, District of Kansas
- Jaime Santos, Law Clerks for Workplace Accountability
- Kendall Turner, Law Clerks for Workplace Accountability
- Andy DeGuglielmo, Student, Yale Law School

- Rita Cilfes,Student, Yale Law School
- Lisa I lansmnnn, Student, Yale Law School
-Chandini Jim, Student, Yale Law School
- Alyssa Peterson, Student, Yale t aw School
J All. times are approximate.
2 Hie order of witnesses is subject to change based on hearing logistics:
-'Serena Walker, Student. Yale Law School
-Megan Van, Student Yale Law School
- Dr. Richard Cordero, Esq.JudidnlUiscipIme Reform
- Charles Roomier, JD, Type I Diabetes Defense foundation
- Jnn 13.1 tomHton, Public Witness
—Pnul 1 Idrvit/, Public Witness
~ John C. Love, Public Witness
-CymsSnnai, Public Witness
Plaintiffs statements can not say it better then the already addressed concerns bv these
honorable men and woman of the Judicial court system. Plaintiff asks the highest court judges
in the land, the Supreme Court of (he United States of America to take 5:34:22 of their time to
hear the very important questions addressing llu* issues plaguing our
court system today,

QUESTIONS
II1BB1.EK PftOm?

_________ Wednesday, January IS. ?<PH
1 :lo-cv-071 >3 On 1 Ask A Judge To Recuse J limself If ] Bellow I le 1$ Biased?
a.) Recusal is a request for the judge of the presiding case to excuse himself from the
case so that a new judge may be chosen. Although an attorney or pm se litigant may ask n
judge to recuse himself from Ihc* ease, there should tv substantial evidence for judidal conflict
of interest because the judge in question has the rightlo sustain or dismiss the motion.* The
recusal motion may have to be appealed when the trial is over.
h.) How can Judges Break the Law Inside die Court Room?
There arc some ways a corrupt judge may abuse the law he or she is suppose to uphold;
Lying under oath. Remember a judge is always under oath In the courtroom.
•

Citing Invalid Jaws or precedent*, This is extremely hard to catdi If you're not prepared
to discuss these topics,.

*

Ignoring certain laws or precedents. This is more unusual because a judge typically
can't ignore a law without explaining why The judge would have to break two rules in
order to accomplish Ihis one.
II

VVhni is judicial Misconduct?
irejra'*1 ftflSe0"dWrt 'S * S0r,0llS dpvii1lJon from ihe .itcepted practice of a judge in the judicial
* Giving special treatment to friends or relatives,
* Placing their peretinal schedule befoir those ol the parlies,
* Accepting bribes, or
* Improperly discussing^ case-wHh an attorney,
28 USC §§351 -364 allows an)' person to complain al-mii a federal or appeals judge thev
bolide has committed Judicial misconduct.
CHAPTER 115 - EVIDENCE; DOCUMENTARY
Court record lost or destroyed generaityj
SUMMARY WHY DID THE JUDGE, ATTORNEY'S AND DEPENDANTS DO THESE
THINGS?
J. fudge, attorney's, defendants, and IheJrpolice friends, knowingly and willingly repented
lies that plaintiff poured Watch on the ftw line m kill dog, inking criminal defendants
side and Ignoring Plaintiffs truthful evidence, while defendants evidence & till hearsay?
2. Why did Judge say, pfetnUii tiled her ra$c shortly alter acquittal, (t\s not true? 2014-2016
3. Why did Judge say, plaintiff h.iS a long list of defendants. He dismissed them nil cxcYfl
Alonso Castaneda. Yolanda Castaneda's husband who did not file the complaint?
4. Why did Judge .say tills case is not on the murder of plaintiffs mother. Yet he brines it up in
hts Memorandum* Opinion and Order?
5. Federal building manager's name is Castaneda.
6. Federal Chief Judge ,il the time was Hispanic.
7. Wien plaintiff first filed her rase. A male Hispanic desk clerk David assigned plaintiff lo
Hispanic judge A loose, m die height of die Hispanic problems in USA 5016. Hie same
name as dvrendantAlonso Castaneda. When plaintiff a$ks lo thango die judge, he smiled
deceitfully arid Raid no! Plaintiff prayed for the best, hut the nightmare began (nr 5 long
years.
& Why did judge Alonso embarrass plaintiff in court who was going through hearing loss,
and said, you cant hear lk attorney nevi to you? Plaintiff is a disahloLscnlof citizen who
ia going through n change of life mid .suffering from die wrongful death of her beloved
mother through the sinful lies of all the defendant
9. Why wouldn't the Judge give plaintiffchance for a jury trial?
10. Why wouldn't the judge allow her au attorney, knowing she couldn't afford one to hel p

fir

1,1. Why did Judge Alonso write in lib locked JocM entry's negative comments that caused
other judges to turn against plaintiff when Sinking help in other courts?

LIST OF PARTIES

All parties do not appear in the caption of the case on the cover page. A list of
all parties to iheproceeding in the court whose judgment is the subject of this petition is as
follows? Alonso Castaneda, Lt. David Bonner, Officer Andrielle Cap.

RELATED CASES
I

Lfolnskt Jeanette v. Castaneda, Del Heal Yolanda & Castaneda Alonso No. 2021CH03379
District 1 Daley Center, July 28,2021.

V

Lipinski Jeanette v. Castaneda. Del Real Yolanda & Castaneda Alonso No.20216001858
District 6 Municipal Civil Markham, April 8,2021, Rm 208.

V

Lipinski jrmirttrv. Village of Burnham, //.. No. 19-cv-6154 U.S. District Court Northern
District of IL, ongoing May 2021.

I

Upinski Jeanette v. Castaneda Alonso No, 21-M6-001858, U.S. Sixth District Court
Muni opal Markham, IL, ongoing May 27,2021 Rm 208.

T

Upinski Jeanette v. Castaneda Yolanda Del Real No. 210P60536 May It, 2021.

i' Upinski Jeanette v. Castaneda Afonso No. 21OP40085 Denied Mardi 2,2021.
•*
I

Lipinski Jmtcfle n Castaneda Alonso No. 1-19-1226 U S. First District Appellate Court,
ongoing January 2021.

V Castaneda Alonso v. Upinski Jeanette No. 2DMC6Q026Q8 U.S. Sixth District Court
Municipal Markham, JL. 3rd False arrest, Dismissed Mardi 10,2021.

iv

1 Upinski Jeanette n Castaneda: Alonso No,.210P4008504 Circuit Court of Cook Countv,
Denied. March % 2021.
T Upinski Jeanette n Castaneda Alonso No.2020OP74903, Cook County Circuit Court 555
WestHarrisOn Chicago, IL. Denied August 14* 2020.
'< Upinski Jeanette u Castaneda Ahwo No. 2019DP6054S US. Sixth District Court Municipal
Markham* XL, Vacated June IS, 2019.
T Upinski Jeanette v. Castaneda Yolanda No. 2017OP7498. Cook County Grcuit Court 555
West Harrison Chicago, 1L Denied Jan.16,2018.
Y Upinski Jeanette v. Qutvn Yesenin No. 2017OP497 Cook County Circuit Court 555 West
.Harrison Chicago, XL, DeniedJand.G, 2018.
T Chavez Yesenin u Upinski fennclte No.l7MC6O0&$i Village of Burnham, IL 2nd False
arrest, "Not Guilty1' January 9, 2018,
i Upinski Jeatmften Chavez Yesenin, lima, Enuwud, No,17OP60417,l6j5, Dismissed April
28,2017.
T Castaneda Yolnudn v. Upinski Jeanrtte No.l4f,00558901 US. Sixth District Court Municipal
-Markham, TL. 1* False arrest, "Not Guilty" July 23,2015.
Y Upinski jrnnrltc Guardianship (I'raud) Mother Helm Rector No.l4PH97 Clerk of the Circuit
Court Richard J. Daley Center Giicago, JL, Murdered February 1, 2015.

TABLE OF CONTENDS

MOTION FOR LEAVE TO PROCEED TN FORMA PAUPERIS

....A

AFFIDAVIT OR DECLARATION IN SUPPORT OF MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS

—JJ-F

PETITION FOR A WRIT CERTIORARI-RULE 34

COVER

QUESTIONS PRESENTED.

i

LIST OF PARTIES AND RELATED CASES.

,Ii

TABLE OF CONTENTS....;

.vi

INDEX TO APPENDICES

*

.Vi!

TABLE OF AUTHORITIES

xl

OPINIONS BELOW.

.1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

■

,

A

;e

REASONS FOR GRANTING Tl IE WRIT.
CONCLUSION

13

CERTIFICATE OF COMPLIANCE.

,16

PROOF OF SERVICE.

..END

vi

INDEX TO APPENDIX
fZS.C. oj Appeals SeventhCircuit Ordcr..Gise 19-3395..Doc#58..Piled:l2/0B/2020..... Pages 3...A
U.SC. oj Appeals Appellant #s Motion Extension of Time To File Petition For Rehearing En
Banc-Grder..Penied.,Case 19-339$..Doc4 6URIe&12/ 23/2020,

Pages 1...B

U.S.D.C. Northern District of IL Eastern Division Memorandum Opinion and Order. Case;....
UG-cv-07153 Doc# 159 Hied: 09/13/l9.PagefD #;I300,

Pages 1 of 8....C

ii.S.C tifAppeals final JudgementXase; 19-3395...Doc#0071374012&...Filed; 12/30/2020..
........Pages 1.JD

U.5.C. ofAppeals Notice of Issuance of Mandate..Casc:19-3395 D6c«007X3740129..Hled:
12/30/2020,

.Pages 2...E

U.S.D.C Northern District afJL Eastern Division Record of Appeal Case: 1:16-07153 Doc#182
ENTERED IN ERROR DOCKET SHEET Filed: 06/23/20 PageTDff 1423.......... Pages 1 of 4....F
MODIFIED ON 06/29/2020 (rq). (Entered G6/25/2020)„X$.D.C Northern District ofiL
Eastern Division Notice Of CoTOctiortXa<u\l:16-cv-07l53,MDoc:#184,.,Pi]ed:06/29/20...
PageTD.#: 1427 Page 1 of 1.
U.5.D.C. Northern District of IL Eastern Division Notice of AppealXase:l:16-cv-07153..Doc;
#164.,Piled: 12/03/20 Page ID# 1344.

J’ageton.X

U.S.D.C Northern District ofU, Eastern Division Docketing Statement Case: 1:16 cv-07153..
Dw:#165U4M: 12/03/19..PageID #:1345... & Copy #173-4189.

vil

Page 1 oil..PI

U.S.D.C Northern District of IL Eastern Division Order.Plaintiff's motion 1163] for leave to
proceed in forum pauperis on appeal is granted. Case;l:16-<^-G7153..Doc:#l69.. Piled:
12/06/T9..PageiD P:U7(>

Page 1 ofl.J

IXS.D.C. Northern District of IL Eastern Division Order.Plnintiffs motion 11701 for waiver of
fees for transcripts on appeal-Denied-wilhout prejudice...Case:l:16-cv-07l53..Doc:#172....
Filed: 12/12/19,..PagelD 6:1381

Pagel of2....J

l/.S.D.C. Northern District of IL Eastern Division Order.Plaintiffs motion |178] for appoint­
ment of counsel ls-Dcjtied-.MCase:l;16-Cv-07153.J3oc#181.w Filed: 03/l0/20...PageID
#;142Z

.Page 1 of 1....K

Petition For A Writ of Certiorari-Rule 34

cover.. ..L

US.D.C. Northern District of IL Eastern Division PLAINTIFFS MOTION TORECONS1PER
OR FOR RELIEF FROM jVDGEMENT..Case:l:16-r\'-07153.iloc:#161..Hiled:
10/13 /19...PagolD $:1309.,CDOCUMENT included - RESPONSE TO CASTANEDA'S ET AL.
MOTION FOR SUMMARY JUDGEMENT, NOTED ON DOCKET ? 140,10/31/2018.
submitted). (Note on bottom of pages two alternating different docket stamp on all 12
pages.) Two documents submitted by plaintiff, Summary & Memorandum. Summary
Judgement was not stamped back on top to plaintiff only on the bottom. But, it is NOT in
the docket it 140? Neither documents! A warning message page from CM/ECF UV£y VER
6.3.3 - U.S. DISTRICT COURT, NORTHERN ILLINOIS-CONFIRM REQUEST 8/9/21,
11:23PM PAGE 1 OF 1 SAYS: (THE LINK TO THIS PAGE MAY NOT HAVE ORIGINATED

vin

FROM WITHIN CM/BCE IF YOU CLICK THE CONTINUE UNK, YOU WILL BE BILLED
FOR THE INFORMATION PROVIDED.) (2 Docket Documents attached)...Page ! of l..Page
I of 27.
U.5.D,C Northern District of IL Eastern DiWrm-ORDER- PLAINTIFFS MOTION 161 FOR
RELIEF FROM JUDGEMENT IS DENIED..Gisc:l:16-C\*-07153..doc:#162...Fi!ed: 11 /05/19..
PagtSD A1336

Page 1 of 2~.N

U:S,D,C, Northern District aflLEastmt Dftwttm'-PLAINTIFP JEANETTE5.R. UPINSKI
ANSWER TO YOLANDA AND ALONSO CASTANEDA'S COUNTERCLAIMS Casc:l;i6cV‘07l53..Doc#l2Q(.H1ed: 05/07/l$..,Pageiq #;98L

Page 1 of 10....O

US.0.C Northern District of IL Eastern Division RESPONSE TO DEFENDANTS JOINT
STATEMENT OF MATERIAL FACTS ENTITLING THEM TO SUMMARY JUDGEMENT.
Casei:16-cv-07153..Doc:#14D..1Filed: 10/31 /l8..Pagel of 5.,TrigcTD # 1253....,

Page 1 of 5.wP

lh$tQ.C. Northern District of it, Eastern Division ILLINOIS CIRCUIT COURT OF COOK
COUNTY CERTIFIED STATEMENT-NOT CUlLTY-O7/23/15.Cnse:I:lCva-07153;Doc:#3t-2
..Filed: 10/12/i6...Page ID #074.

i«4»i

Page. 1 of2..,.Q

US.p.C Northern District Of IL Eastern Division-EQVTP COURT REPORTING-CaseMfrcv-0?l53~Doc#132-7...Fi]ed: 10/01 /18.... TagelD #:1075

Page 16 of 44...R

UrS.D.C. Northern District ofll Eastern Oivisttm- LANSING VETERINARY LETTER.
TUESDAY, JULY 15,2014 -Casc:‘I:l6^-07153..Doc^lC1,..Hied: 10/U /l9..of 27,..PageTD
# :1321r23.

...Page 13-15..,.$

fe

U.S.P.C. Northern Oistriirl efILEasUwt Dm/sfou-BURNHAM POLICE DEPARTMENT CASE#
14600558901 NO OBJECTION TO EXPUNGE CASE...Ca9e:l:16cv-07l53..Doc:#m9..<
Filed: 10/01 /18...PngeTD *:UJ I

Page 2 <il 2....T

U.S.D.C Northern District qfIL Eastern Dmj'sftw-ILLINOIS STATE POLICE LETTER SEAL
RECORD AND EXPUNGEMENT-COURT ORDER...Cfise:l:16cv-07mDoc:#31^, .Filed:
X0/12/H>....PagelD #;172.

PngC1 Of 1....U

U.SD,C Northern District oj)L Eastern Dansion-fALSTL BURNHAM POLICE DEPARTMENT
REPORT OFFICER LIED DOG DIED FROM BLEACH-LATER REPORT RED ACTED DOG
DTD NOT DTE Case:1:16cv-07153..Doc# 133-Z..Filed: 10/01 / 18 JPageTD# :1130.Pagp 4 of 5....V
ilStD,C. Northern District of IL Eastern Dlvisimi-EXHIBVT 8, PLAINTIFF LIPINSKTS
ANSWERS TO YOLANDA AND ALONSO CASTANEDA’S REQUESTS FOR
ADMISSION TO JEANETTE LIPINSKI- Case:l:lGcv^7l53.Dac:m2-8,-H1e&
10/01 /18...PageID #:1JQ5...( Please note stamped on the bottom of each page the same 1-5*
Upinskl's answers to Castaneda Requests for Admission.),

-Page 2 of 6—W

Not SO on Response by PUL Summary Judgement submitted Doc. #140 not even docketed?

TABLE OF AUTHORITIES

CASES
Ammons ti. Artwtnk Uniform Serein's, /»<•„ 368 F.3d 809,817 (7". Cir. 2004).,................
Rammu v. Fmsweyer, 131NE 3d 488, Supreme Court 2019.......................................
Mrraj Trade Commission n Bay Aren, Business Council 423 K3d 727,633 (71*' Or. 2003),
Cates v. Board ofEducation City of Chicago 9l6H3d 635,635 (JW* Of. 2019)..................
Johnson v. Advocate Health & Hasps. Corp. 892 F.3d 887,894, <7* dr. 2018)..................
Kcton v. Morning Star. Ine.667 F. 3d 877,884 (Cir. 2012).....................
Strokes v. Board of Edue., City of Chicago 599 R3d 617,622 (7*f. Qr. 2010)........... ..........

STATUES
42U,S,C19S3.....„.....
28U.S.C§19)5(e)(2XB)
RULES
Rules 10-14 (Petitioning for certiorari).,...........................
Rule 29 (Filing and service on opposing party or counsel),
Rule 30 (Computation and extension of time)..................
Rules 33*2 and 34 (Preparing pleadings on x n inch paper)
Rule 39 (Proceedings in forma pauperis).......................... .
LR56.L
sn

Xi

if tr»

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below,

OPINIONS BELOW
[/| For cases from federal courts;
The opinion of the United States court of appeals appears at Appendix A
the petition and is reported at http;/ /cases.justia.com/federat/appellaie-courls/
ca7 /19-3395/19-3395-2020=12-OS.pd r?te=1607445016;_or,
f I ta*

designated for publication but is not yet n?portcd;_or,

[ | is unpublished,
opinion of the United States district court appears at Appendix £jo the
petition and is reported at From Case-text; Smarter Legal Research, Lipinski v.
Castaneda, Case No. 16-cv-7153 (NX). 111. SepX3,2Q19);_or,
11 has been designated for publication but is not yet reported;_or,
j 1 is unpublished.

Page 1 of IB

JURISDICTION

For eases from federal courts:
The date on which the United States Court of Appeals decided my case was
December ft. 2020.
11 No petition for rehearing was timely filed in my case.
VA A timely petition for rehearing was denied by the United States Court of Appeals
on the following date: December 23.2020, and a copy of the order denying-rehearihg
‘appears at Appendix B >
11 An extension of time to file the petition for a writ of certiorari was granted to and
including

(date)

.on (date) in Application No.

The Jurisdiction of this.Court is invoked under 28 U. S.C*§ 1254(1).

Page 2 of 16

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1st Amendment; Freedom .of religion, speech, petition and assembly
Congress shall make no law respecting; an establishment of religion, Or prohibiting the
free excorise toeiedf...Eg..Thomas-v, Review Board; 450 U.S. 707 (1081)
Sth Amendment; Protection against seif-incrimination, double jeopardy, Protection of.
due process and right to a grand jury. Chicago; B. & Q. R. Co. v, Chicago, 166 U. S. 226
(1897).
6th Amendment; Right to Speedy and public trial, impractical jury, and right to counsel.
The Sixth-Amendment guarantees the rights to a public trial without unnecessary delay,
the right to a lawyer, the right to an impartial jury, and the right to know who your
accusers are and the nature of the charges arid evidence..
8th Amendment; Protection against cruel and unusual punishment. The Eighth
Amendment to the United States of America Constitution states: "Excessive bail shah
not be required, nor cruel and unusual Punishments inflicted." This Amendment
prohibits the federal governments from imposing unduly harsh penalties.

Page 3 of 16

STATEMENT OF THE CASE

Appellant Brief pg.$.
Lipinski filed several complaints, and after motion practice, there remained only
3 count against Yolanda Castaneda and Alonso Castaneda for malicious prosecution
and, count 4 against officer Cap and Lt. Bonner for malicious prosecution and false
arrest 42 U.S.C.1983. R J.4.48, 55. Basically Lipinski alleged that Yolanda Castaneda and
Alonso Castaneda reported an alleged poisoning of their dog and that officerA; Cap
andlx David Bonner wen? liable under 42 U,S.C.1983 for false arrest and malicious
. prosecution.R.#48.
Lipinski was arrested and prosecuted for knowingly poisoning a dog or other
domestic animal. R.##48,55, R.8132 Ex 4, pp. 14:IU132EX 7 pp. 26,59,p.29, p, 33, Ex
2: U J159, pp.3-5.
Lipinski was found "not guilty", and the case was dismissed. R.#132 Ex 7 p 46:
R.#159p.3: R.#3L
Lipinski filed two motions for several motions and orally for appointment of
counsel and the district court denied them all. R.#5, R-#6, R.#t2, R.#23.
In District Court, the defendants filed Motions for summary Judgement. R.#1-30,
R.rl34. The defendants filed a Joint Statement of Undisputed facts under~LR
56.1.R.# 132. Lipinski filed a sworn response to the motion for summary judgement

Page 4 of 16

disputing many of the defendant's statements of undisputed facts1. R.&140. This
response was verified R.^140 p.
On September 13, 2019, the district court granted the defendant's motions for
summary judgement, R.#1$9.The district court doomed admitted certain facts set forth
by the defendants because, the district court said, Llpinski failed to controvert those
facts with citations to evidence. R.#159.p.l-& The district court thereafter analyzed the
case based upon the defendants'? statement of undisputed facts and terminated the
litigation.

Case: M6-CV-07153 Document#; 161 Filed: 10/11/19 Page 1 of 27PageID #:1309 pgs.
1-27

Page 5 of 16

REASONS FOR GRANTING THE PETITION
Reasons /or granting the petition is to correct the errors in the case and to bring to
justice the truth and correct decision in the case’s Multiple errors.
L Error: CM/ECF LIVE, VER 6.3.3 - U.S. DISTRICT COURT, NORTHERN
IUJNOIS-TECHNICALEROBLEM ENTRY Summary judgement. Docket #140 on
10/31/2018. RESPONSE by Plaintiff Jeanette S. R. Lipinski to Motion for Summary
Judgement 12Q. Motion for Summary Judgement 134 /Lipinski, Jeanette) (Entered:
10/31/2018).

Two documents were upload on CM / ECF LIVE, U. S."District Court, Northern Illinois
system by Plaintiff Ms Lipinski. One was the RESPONSE TO CASTANEDAS ET AL.
MOTION FOR SUMMARY JUDGEMENT and OTHER MEMORANDUM. NOTE:
PLAINTIFF for summary judgement entered TWICE. NO OTIIER NAMES Filed by.
The documentation # 140 for summary judgement is NOT a motion for .summary
judgement but for a RESPONSE TO DEFENDANT'S JOINT STATEMENT OF
MATERIAL FACTS ENTITLING THEM TO SUMMARY JUDGEMENT #130 by Yolanda
Castaneda, and #134 Motion for Summary Judgement was by Lf. 8onncrand officer
Cap.
Neither Plaintiffs Motion for Summary Judgement and Memorandum showed up in
the docket. Yet Plaintiffs RESPONSE Motion for Summary judgement was WRITTEN
by the CM/ECF LIVEat the bottom page#] SAYING '‘Plaintiff LipinskTs Answers to

Page 6 of 16

the interrogatories of die Castaneda's, and page $1 SAYING "Plaintiff Lipinski's
Response to Castanedas’ Motion for Sum mar)* Judgement.'1 Interchanging hack and
forth every other page for 12 pages. Lipinski's certified date is October 30, 201B. So, was
U. Bonner & officer Cap's document certified as Oct. 30,2G18. There was no
documentation On the docket recorded for them, just plaintiff. Attached is Plaintiffs
RESPONSE TO CASTANEDA’S ET AL .MOTION FOR SUMMARY JUDGEMENT
There was no case stamp at the top of the document. This was often problem a problem
noted toCM/ECF. Plaintiff received no Memorandum back at all. MsLipinski took it
for granted that everything was OK until Judge ruled "denied" against Plaintiff. Plaintiff
lives alone, no one has access to her computer. Many thoughts arose to why this
happened but nothing made any sense since plaintiff knew she uploaded them as she
Usually did for the past five years following all instructions. It is a-mystery! Until
plaintiff took a closer look at the docket « 140 online and the content and messages. It
was not the documents she uploaded. It clearly says the'Respcmse to Castaneda's et al,
motion for summary judgement but the document when opened said Response to
defendant’s joint Statement of material facts entitling them in summary Judgement. This
entry was wrong by whoever labeled and entered ittnto thodoekcland totally
confusing how this happened. This was not brought up-by judge Alonso. By looking at
the docket content you can clearly see the problem is Not what is written in the judges
Memorandum and order.

Page 7 of 16

The plaintiff believes that in this current day and age of advanced technology it
is possible to change information online to cause harm to someone for someone* else'*
benefit; called hacking, Plaintiff believes that this is what happened to her, for our
current news head lines of multiple big lech company hackings. She believes from Hie
number #2 error mentioned below is another proof of computer hampering. Today's
United States technical problems stem from lack of good and safe protection of our
Computer systems, Tor lack of this protect ion it is easy for dishonest individuals (0
compromise documents, steal information and change the outcome of a person's life.
Behind Docket #1$1 In the Appendices papers in this brief is a page from the federal
docket giving this WARNING: The link to this page may not have originated from
within C.M/ECF. If you click the Continue link, you will be billed for the information
provided. Dated 6/9/21, U:23p. CM/ECF LIVE, Vor 6.3.3 - US. District Court.
Northern Illinois- Confirm request.
This warning means It's from a separate site working in connection with the
courts, NOT from a secure site, who is giving out the court's information. The courts
need to be investigated document tampering and secure the courts clients personal
information online, this problem arose with Ms Lipinski, the plaintiff no longer used the
CM/ECF LIVE system to upload her documents. She handed them in, in person to the
clerks office where the documents are personally stamped by the clerk and notes the
clerks individual names in both federal and appeals Courts, Plaintiff hopes the U.$.

Page 8 of 16

Supreme Courts will take this information into serious consideration in her Appeals
case and for the whole United States Court system.
2. "Error: Officer Cap was removed from the docket by neither Plaintiff or Deft’s
attorneys.. Plaintiff brought this to Judge Alonso's attention who looked on his laptop.
He was shinned, no mention of why, was given, and also not noted on the daily docket
sheet. Three months later officer Cap was back on Ihe docket?
3. Error: a. Judge Alonso made a wrong judgement in die case. In his opinion and
order he states that plaintiff said she admitted pouring bleach on neighbors property
and poisoning their dog. This was never said by Plaintiff, but a made up lie by die
defendants and attorney’s.
:b. Judge Alonso also makes another mistake by saying in his order that the
Vets letter says that die dog was poisoned, when it says no such statement. In fact the
lower court found the plaintiff not guilty and this letter was not approved by die states
attorney, as factual evidence. See attached latter.
c. Judge Alonso ignored many factual evidences: false police report saymg
that the dog died and die same report later was redacted that the dog did not die; Case
l:16-cv-07153 Document # 133-2Tiled 10/01 /18page 2 of 5 Page ?iD U 1128, round Not
Guilty document from Markham courthouse, Veterinary letter, nopoisoning evidence,
no proof what so ever, only lies from Defendants.

Page 9 of 16

Supreme Courts will lake this information into serious consideration in her Appeals
case and for the whole United Slates court system.
2. Error; Officer Cap was removed from the docket by neither Plaintiff or Deft’s
attorneys.. Plaintiff brought tins to J udge Alonso's'attention who looked on his laptop.
He was stunned, no mention of why, was given, and also not noted on the daily docket
sheet. Three months later officer Cap was hack on the docket?
3. Error: a. Judge Alonso made a wrong judgement in the case. In his opinion and
order he sta tes that plaintiff said she admitted pouring bleach on neighbors property
and poisoning their dog. This was never said by Plaintiff,but a made up lie by the
defendants and attorney’s.
:b. Judge Alonso also makes another mistake by saying in his order that the
Vets letter says that the dog was poisoned, when it says no such statement. In fact the
lower court found the plaintiff not guilty' and this letter was not approved by the states
attorney, as factual evidence. See attached letter.
c. Judge Alonso ignored many factual evidences: false police report saying
that the dog died and the same report later was redacted that the dog did riot die. Case
l:lfi-cv-f)7153Document# 133-2Filed 10/01 /18page2of 5 Page ?iD 8 1128, Found Not
Guilty document from Markham courthouse, Veterinary letter, nopoisoning evidence.
no proof what so ever, only lies from Defendants.

Page 9 of 16

d. Judge Alonso denied several requests for plaintiff attorney representation,
c. Judge Alonso denied trnnscript fee wavier for transcripts that would have
facts with case evidence. Legally entitled for low Income people.
'f. Judge Alonso denied motion to reconsider request to expose the factual
truth evidence.
g. The court of Appeals dittoed judge Alonso's wrong Memorandum opinion
and 'order and did not look into the facts andslamdunked Plaintiffs tights to Rehearing
En Banc knowing full well the availability of pro so attorney's an? not available, during
Christmas holidays.

Page 10 of 16

THE HOLY SCRIPTURES; PERCUSSION OF JUDEO-CmiSTlAm
It is Written: Our Forefathers to present* Adam &:Eve, Noah, Abraham, Sarah, Isaac,
Jacob, Moses, judges, Esther, Ruth, King David, Y'shua (Jesus), Matthew, Mark, Luke,
"John, Peter, John Cabot, Christopher Columbus, George Washington, Abraham Lincoln,
John K Kennedy, Ronald Reagan & many others.
Hebrews 11:6,32-40 KJV
D And.without trusting, it is impossible to be well pleasing to God, because whoever
rappmaches him musttrast that he does exist arid that he becomes a Rcwarder to those
who seek him put.
32 What more should 1 say? There isn't time to tell about Gideon, Barak, Shimshon>
Yiftach, David, Jshmuel and the prophets; 33 who, through trusting, conquered
kingdoms, worked righteousness, received what was promised, shut the mouths of
lions, 34 quenched the power of fire, escaped the edge of the sword, had their weakness
turned to strength, grew mighty in battle and muted foreign armies. 35 Women received
back their dead resurrected; other people were stretched on the rack and beaten to
death, refusing to be ransomed, so that they would gain a better resurrection. 35 Others
underwent the trails Of being mocked and whipped, then chained and imprisoned. 37
They were stoned, sawed in two, murdered by the sword; they went about clothed in
sheepskins and goatskins, destitute, persecuted.-mistreated, 38 wandering about in

Page 11 of 16

deserts and mountains, living In caves and holes in the ground! The world was not
worthy of them! tra AH of these had their merit attested because of their trusting.
Nevertheless, they did not receive what had been promised, 40 because God had
planned something better fhaHvould involveus, so that only With us would they be
broughtto the goal. (Today!)
JN COD WE TRUST

Page 12 of 16

CONCLUSION
Por the reasons above; the derision of the.Distriei Court should not be affirmed
and.a writ of certiorari should be granted. Plaintiff did not fail to comply with LR 56.1.
The Court pre-judged a problem and deemed it as correct without knowing the tTUth.
The Court has multiple errors and. misjudged and ignored the Plaintiffs factual
evidence and beliefs. The court failed.to look into the truth of these errors, The Courts
errors are not harmless but proved a lack of legal discretion of the law. The plaintiff
believes true justice can only be justified when applied correctly.

Page 13 of 16

Fledge of Allegiance
1 pledge allegiance to the Flag of the United States of America and .to the
Republic ftn* which it stands, one Nation under God, indivisible, with liberty and Justice
for all
The American's Creed Believe in the United States of America as a governmentrOf
llie people, by the people, for the people, whose just powers are from the consent of the
governed; a Democracy in a"Republic; a sovereign Nation of many sovereign States; a
perfect Union, one and inseparable; established upon those principles of freedom,
equality, justice, and humanity for which American patriots sacrificed their lives and.
fortunes,
1 therefore believe iL is my duty to-my Country to LOVE it; to Support its
Constitution, to Obey its laws; to Respect its Flag; and to Defend it-against all eneniies.

A Tribute to Old Glory
*’l am what you make me—nothing mom. I am your belief in yourself; the dream
of what a peoplemay become. 1 am all you hope to be and have courage to die for.
"1 swing before'your eyes,/a bright gleam of color, ferpicturcd suggestion of that
big thing which makesrids nation great,

Rage 14 of 16

"my stars and my strips arc your dreams and vouf labors. They are bright with
cheer, brilliant with .courage, firm with faith/because it is well that you glory in-the
making."
—FrankliivK, Lane.
Illinois Blue Book-1959-1960pg, 15
Ask not what your Country can do for you, ask what you Can do or your country*
—John F. Kennedy, 1961-1963.

.1 pray this petition for a writ of certiorari shall be granted.
Respectfully submitted.

pate: August 12, in the year of our Lord,2021.

eaneite^.U. .Lipinski

Page 15 of 16

CERTIFICATE OF COMPLIANCE WITH
FRAP RULE 32(a)(7), Frap 327(g), & pi32
This document complies with thelypoface requirements of Fed. % App.P
32(?ci)(5) and the type-style requirements of FcdR. App.P 32(a) (6) because this
document has been prepared-ih a pmpoftfonally-spaced typefece 12-point Linotype
style font
This document complies with the type-volume limitations of Fed.R. App. ft 32(a)
(7)(B) and Circuit Rule 32, this document: contains <5,424 words, excluding the pads of
the document exempted tyFed.lL App, P, 32(f).

9Jeanette S. R. Lipinski
14121 S. Green Bay Avc.
Burnham, IL. 60633
myheali ngjesus#ou tiook;com
773.240-7701

Page 16 of 16

